No. 19-1321
In The
Supreme Court of the United States

In Re United States ex rel Cheryl A Wolf,
Raymond J Faliica, Mary Piscitello
Petitioners
v.

United States

Respondent

On Writ of Mandamus
original proceeding
To the D.C. Court of Appeals

PETITION FOR REHEARING
CORRECTED

Cheryl A Wolf Pro Se Raymond J Faliica Pro Se
Mary Piscitello Pro Se
D.O D Contractor
Administrator D.O.D. Contractor
323 Sea cliff Avenue
P.O. Box 1853
6 Ethel Court
Wheatley Heights NY 11798 Sea Cliff NY 11579
Quogue NY 11959
Tel (631) 747-6124
Tel (631) 374-4649
Tel (631) 747 6297

RECEIVED
NOV 2 0 2020

TABLE OF CONTENTS

Page

Table of Contents

1

Table of Citations

n

Petition for Rehearing

1

Factual Background

4

Conclusion

14

Exhibit 1

16

Certificate Pro Se as counsel

19

i

TABLE OF CITATIONS
CASES
Page
Atlas Roofing Co., Inc. v. Occupational Safety Comm'n,
430 U.S. 442 (1977)

11

Bankers life & Cas. Co. v Holland 346 U.S 349.
382-385 74 S.Ct 145, 98 L.Ed 762

8

Bush v. Palm Beach County Canvassing Board,
531 U.S. 70 (2000),

11

Cheney v. United States Dist. Court for D.C.
542 U.S. 367, 380-81 (2004)

13

Envelope Co. v. Denominational Envelope Co.,
80 F.2d 179, 182 (4* Cir.1935)

12

Faretta v. California, 422 U.S. 806 (1975)

11

Fletcher v Peck 10 U.S. (6 Cranch) 87

12

Lochner v New York 198 U.S. 45 (1905),

12

Marbury v Madison 5 U.S. (1 Cranch) 137, 176;

14

Olmstead v United States 277 U.S. 438 (1928)

11

United States v O’Grady (CA2NY) 74F.2d 682

9

U.S. v Margiotta, 688 F.2d 108 (2nd Circ 1982)

9

Wolf v Commissioner 3747-041

11

Wolf et al v United States False Claims litigation 04CV226

1

li

STATUTES AND RULES

APA Christian doctrine

6

Civil Rights Act 1866

10

Conspiracy against rights 18USC241

8

Conspiracy Defraud United States 18USC371

7

Deprivation of Rights under color of law
18USC242

8

Destruction of Evidence 18USC1519

3

Equal Protection Clause

3

False Claims Act 31 U.S.C. §§ 3729 - 3733

10

False Statements 18USC1001

3

Federal Acquisition Regulation Statute (FAR)

6

FAR 50 Extraordinary circumstances

14

Federal Rule Civil Procedure 26B (iv)

6

Interference with Federal Statute 10USC333

8

Misprision of felony 18USC4

2

Misprision of Treason 18USC2382

2

Obstruction of justice 18 USC1503

8

Organized Crime Control Act 1970 Public Law 91-450

8

Perjury 18USC1621

8

m

!

RICO 18USC1961

9

Self-Dealing IRS statute 26USC4941

9

Treason 18USC2381

8

Tucker Act 28USC1491

11
U.S.CONSTITUTION

Article 1 Sec 10 Contract Clause

12

Article III Seel Bad Behavior

7

Article IV Guarantee Clause

2

Article VI Para2 Supremacy Clause

14

Fourteenth Amendment

1

Due process clause

14

Enablement Clause

14

Equal Protection Clause

14

Liberty of contract clause

12

Ninth Amendment

1

Thirteenth Amendment

14

Vesting Clause of Congress

9

IV

MISCELANEOUS

J Bentham Rationale Judicial evidence (1827)

12

Blackstone commentaries

12

Joseph Story, Commentaries on the Constitution
of the United States §1007 (5th ed. 1905)

13

St. George Tucker Treatise View of the Constitution of the United States

10

v

PETITION FOR REHEARING
(CORRECTED)
Pursuant Rule 44 of this Court, Petition for rehearing in the above entitle
case Petitioners acting behalf, People of United States, defend Ninth, Fourteenth
Amendment U.S. Constitution, hereby respectfully petitions rehearing : Petitioners
Cheryl A Wolf D.O.D. Contractor Cage code 03PL0, Raymond J Fallica
Administrator D.O.D. Contractor, Mary Piscitello hereby respectfully petitions this
court for people United States (1) granting rehearing (2) vacating court’s order
denial writ of mandamus October 5, 2020 (3) predisposing this case by granting writ
of mandamus
1) Substantial grounds previously presented never in front full court, nine
judges Rule 44.
2) Substantial grounds not previously presented this Court’s order dated
October 5, 2020 established Rule of law suspended; court order probable nullified
precedent Marbury v Madison in possession Exhibitl admittance extortion self
enrichment manipulation self-dealing government contracts,
3) Substantial grounds not previously presented 2004 USCFC (U.S Court
Federal Claims) jurisdiction Tucker Act 28USC1491 strict scrutiny; court failure
mandate evidence APA FAR Notice 14-404.3 establish successful or unsuccessful
bid, government contract, evidence necessary make court ruling; without evidence
FAR14 Notice, courts ruling created law from the bench suppressed Equal

1

Protection Clause misprision of felony 18USC4 conceal self-dealing government
contracts Exhibit 1
4) Substantial grounds not previously presented, courts failure enforce
Constitution Supremacy Clause 2019. 2014 EDNY Judge recused himself for
judicial bias case 14CV5999, same EDNY Judge answer/ruled denied case
19CV00696 Petitioners Show cause mandated one piece evidence APA FAR 14.403.3
Notice after Respondent’s DOJ defaulted SDNY Case 19CV00696, Respondent DOJ
had case transferred EDNY same recused judge change case number to 19CV02100
altered docket change Tucker Act to civil rights 19CV00696/19CV02100 denied
recertified probable fraud USCFC Case 04CV226 unsuccessful bidder origin USCFC
Tucker Act only jurisdiction; recused judge establish obstruction Due process,
interfered procedural due process facilitated Misprision of Treason 18USC2382
5) Intervening circumstances, substantial or controlling effect multiple court
rulings/orders, absence FAR 14 Contracting Officer’s Notice established supression
evidence Exhibit 1 Case EDNY 08CV5071, EDNY 14CV5999, EDNY 16CV9446,
SDNY 19CV00696/EDNY19CV02100 recertified probable fraud USCFC 04CV226
order absence FAR 14 Notice established procedural due process obstructed.
Respondent identify Petitioners unsuccessful bidders establish probable perjury,
obstruction of justice nullified Reexamination Clause judicial findings 2007 U.S.
Tax Court, IRS issued Petitioner unsuccessful bidder Tax court mandated IRS
declare Petitioner Wolf HIRED under oath of perjury, judicial findings absence
FAR 14 Notice established IRS statements Petitioner unsuccessful bidder violated
2

18USC1001 false statements, act perjury 18USC1621, Obstruct Justice why oath of
perjury: Respondent absence FAR 14.404.3 Notice violated Equal Protection Clause
exposed destruction of evidence 18USC1519.
6) Intervening circumstances or controlling effect, FBI notified 2014, 2016
failure enforce the law, courts will not investigate probable obstruction of justice,
suppressed Equal Protection Clause, destruction inalienable rights established
legitimacy voided by insurrection from within, alter government, arbitrary conduct,
replace rule of law with fraud; absence FAR 14 Notice unsuccessful bidder created
Maxim voided Ninth Amendment, nullified Fourteenth Amendment Liberty Clause
voids legitimacy govern, legal foundation Petition dissolution civilian authority, new
evidence, absence FAR 14 Notice established unsuccessful bidder a maxim, exposed
Misprision of felony, suppress evidence Exhibit 1 last sixteen years till present.
7) Intervening circumstances Misapplication incarcerated prisoner civil
rights common law, discovery boilerplate used against all citizens, obstructed
procedural due process from inception no legal merits False Claims Act, Rico
statutes; USCFC Case 04CV226 voided Tucker Act with opinion rational basis test
has no legal standing as law; unfettered judicial opinion issued orders unsuccessful
bidder destroyed contract, evidence by misuse FRCP 26B(iv), new evidence;
boilerplate systematically misused incarcerated prisoner civil rights common law
voided Reexamination Clause void statute through judicial eoccess obstructed
fundamental rights Ninth Amendment nullified Fourteenth Amendment through
created law from bench, voided statute; incarcerated prisoner civil rights common
3

law issued at inception, standardized procedure facilitate FRCP 26B(iv), deny
discovery obstructed due process, denied fairness by corrupt judicial system; same
boilerplate applied inception Petitioner Piscitello civil Rico case mortgage fraud
Respondent stated incarcerated prisoner civil rights law; Petitioners cases
contracts voided by fraud exposed by lower courts judicial findings established
Reexamination Clause Seventh Amendment; deny discovery exposed new evidence
FBI Petition mandamus 2016, 16CV9446 failure enforce Reexamination clause
Respondent issued only case law incarcerated prisoner civil rights common law
exposed misapplication rational basis test falsely imposed FRCP26B(iv), enabled
restated unsuccessful bidder. Mandamus question why Reexamination clause
judicial findings two separate cases nullified, established conspiracy against rights
18USC241 by Deprivation rights withholding color of office 18USC242: history
established Pro se evidence destroyed; altered due process, suppressed Equal
Protection Clause equated all Petitioners as incarcerated prisoners nullified
Fourteenth Amendment denied Petitioners be heard

Factual Background
Respondent opinion unsuccessful bidder absence FAR 14 notice due process
replaced by court issue civil rights common law has no legal standing under Tucker
Act; court decision foundation rational basis test, empowered false statement
18USC1001 unsuccessful bidder, nullified Congress Vesting Clause: voided

4

jurisdiction strict scrutiny, contract law, USCFC Tucker Act 28USC1491, APA FAR
Statute mandated procedural due process FAR 14.404-3 Contracting Officer’s
notice only defines successful or unsuccessful bidder; Respondent Misprision of
treason 18USC2382, conceal IRS failure prosecute 1996 see Exhibit 1, exposed self­
dealing government contracts; manipulation government 501 foundation, extortion,
IRS arbitrarily voided enforce law established Treason 18USC2381, concealed by
Supreme Courts’ error, 2005, 2012, 2016 not a full court, without new evidence;
misapplication FRCP 26B(iv) denied duty disclosed evidence enabled destruction
evidence 18USC1519; new evidence exposed May 2019: affirmed Respondent’s fraud
unsuccessful bidder, declaration establish court enabled appearance as law is a
cloak, facilitated evidence suppressed 18USC1519, inception litigation Feb. 2004,
Respondent empowered perjury 18USC1621 by false statement 18USC1001 created
cloak, misapplication rational basis test, suspended Bill of Rights without due
process by doctrine incarcerated prisoner civil rights common law establish motive
EDNY Judge altered docket change nature of case origin Tucker Act to civil rights
standing by unfettered judicial discretion voided Tucker Act, Ninth Amendment;
established boilerplate practice obstruct due process by fraud upon the court;
introduce fiction, incarcerated prisoner civil rights common law, no legal merits,
only function destruction evidence, denies constitutional rights Pro Se be heard in
court; judicial bias nullified Equal Protection Clause, Fourteenth Amendment
liberty Clause; boilerplate systematically misused incarcerated prisoner civil rights
common law voided Reexamination Clause, interfered statute through judicial excess

5

obstructed fundamental rights Ninth, Fourteenth Amendment, created law from
bench, imposed incarcerated prisoner civil rights common law at inception deny
discovery, standardized procedure boilerplate applied Petitioner Piscitello case civil
Rico mortgage fraud; evidence never heard; suppressed Equal Protection Clause.
Mandamus decision denied Petitioners unsuccessful bidder; new evidence, writ
show cause 19CV00696 SDNY jurisdiction Tucker Act Mandamus Respondent
provide evidence APA FAR 14 notice: Respondent voided 28USC455 2014 recusal
order, established judicial bias; judicial opinion created law from the bench:
unsuccessful bidder obstructed due process: mandamus; provide absence APA FAR
14 notice, Respondent arbitrarily voided Tucker Act April 2019 established,
interference Federal Statute Civil Rights Act 1866 False Claims Act, D.O.D
contractor Christian doctrine mandated APA FAR 14 contracting officer’s notice
only procedural due process legal foundation, definition unsuccessful bidder APA
FAR statute; DOJ defaulted answer show cause produce FAR 14 notice contracting
officer exposed misapplication FRCP 26B(iv) new evidence, appeal 16CV9446
December 2018, voided Fourteenth Amendment liberty Clause, NULLIFIED
Reexamination Clause; U.S. Tax Court judicial findings evidence, no contracting
officer established absence FAR 14 Notice: Exhibit 1 established legal foundation
Petitioner HIRED, unsuccessful bidder false statement 18USC1001; Tax Court
mandated IRS declaration Hired under oath of PERJURY, Tax Court Case 3747-041
2007; same exact evidence case 04CV226 established exposure obstruction of
justice by fraud 18USC1503; misuse FRCP 26B(iv) deny duty disclose evidence

6

unrepresented party incarcerated; Respondent boilerplate incarcerated prisoner
civil rights common law issued at inception on all Petitioners litigation; denied
Petitioners access court to be heard. April 2019; Respondent transfer case EDNY
Judge Bianco’s Court voided Reexamination Clause 08CV5071, unclean hands
established recusal 2014; Judge Bianco certified magistrate report (absence FAB 14
Notice with misrepresentations incarcerated prisoner civil rights common law
practiced U.S. Court Federal Claims):EDNY Judge certified perjury voided
Reexamination Clause 2007 U.S. Tax Court same exact evidence: Bianco court
obstructed due process Fourteenth Amendment, civil rights no legal standing U.S.
Court Federal Claims, established conspiracy defraud United States 18USC371,
destruction fair trial, evidence: conceal judicial findings U.S. Tax Court litigation
initiated by Respondent’s false statement unsuccessful bidder. Tax Court judicial
findings mandated IRS attorney statement 2007 Petitioner Wolf Hired under oath
of perjury; IRS stated unsuccessful bidder after discovery established
unsuccessful bidder perjured statement by absence FAR 14 notice:
Certified orders 16CV9436,19CV00696/19CV02100 fraudulent, exposed IRS FBI
DOJ no longer enforce Statute, Laws, Constitution; Mandamus original proceeding
U.S. Court of Appeals D.C Circuit 2019; Respondent imposed court created
technicality incarcerated prisoner civil rights common law at inception fraud
incurred; origin Washington D.C, void discovery denies fair trial, suppression
evidence misapplication FRCP 26B(iv); conceal self-dealing government contract
fraud; Respondents year misprision of felony 18USC4 enabled no oversight stop

7

fraud; Government Debt 2004 4 trillion, present debt exceeds 26 trillion dollars:
debt burden threat national security; mortgage fraud known threat causation
financial crisis 2008, foundation Piscitello Case. New evidence absence FAR 14
notice, Exhibit 1 stated No contracting officer; destruction contract, obstructed
justice Fourteenth Amendment 18UC1503 by false statements 18USC1001;
interfered with rights 18USC241, withhold color of office 18USC 242, conceal
government contract corruption, interfered statute False Claims Act 31 U.S.C. §§
3729 - 3733, Civil Rights Act 1866 violated 10USC 333 interfered with Federal
Statute; voided legitimacy civilian authority, violated Article III Sect 1 BAD
BEHAVIOR articles as follows

1) IRS failure enforce law 1996, establish 18USC2381 Treason; nullified taxation
with representation replace by arbitrary laws of individuals obstructed due process
empowered tyranny; foundation judicial executive overreach, abuse of power see
Bankers life & Cas. Co. v Holland 346 U.S 349, 382-385 74 S.Ct 145, 98 L.Ed 762:
2) DOJ FBI IRS, conceal extortion by destruction contract, see Exhibit One;
established there is no contracting officer exposed contract manipulation; three
agencies issued False Statements 18USC1001 by Respondent attorney DOJ
facilitated perjury 18USC1621, obstruct justice 18USC1503 by Fraud upon court
suppressed Equal Protection Clause Fourteenth Amendment, brought fiction,
misapplied incarcerated prisoners civil rights common law, established history

8

invoke FRCP 26 B(iv) by dissembled conduct Respondent voided Congress vesting
clause; civil rights no legal standing USCFC established created law without due
process; repealed Thirteenth Amendment
3) Petition, origin complaint foundation judicial findings; Exhibit 1, June 7 letter
stated on government letterhead no contracting officer established manipulation
501 foundation self dealing 26USC4941; U S Supreme Court law established
Precedent United States v O’Grady (CA2NY) 74F.2d 682, manipulation of
foundation June 10 letter Primary contractor simultaneously Government employee
exposed extortion; U.S. v Margiotta, 688 F. 2d 108 (2nd Circ 1982): “Court held that
extortion “under color of official right” occurs “when a public official makes wrongful
use of his office” Extortion,18USC1961 RICO; court denied Oct 5 2020, order direct
conflict organized crime Congressional mandate Organized Crime Control Act 1970
Public Law 91-450; Respondent conduct undermine the general welfare of the
Nation and its citizens; and stated article (5) organized crime continues to grow
because of defects in the evidence gathering process of the law inhibiting the
development of the legally admissible evidence necessary to bring criminal and other
sanctions or remedies to bear on the unlawful activities of those engaged in
organized crime and because the sanctions and remedies available to the
Government are unnecessarily limited in scope and impact. It is the purpose of this
Act to seek the eradication of organized crime in the United States by strengthening
the legal tools in the evidence-gathering process, by establishing new penal

9

prohibitions, and by providing enhanced sanctions and new remedies to deal with
the unlawful activities of those engaged in organized crime.
Petitioners two cases Reexamination Clause linked by misuse of office establish
deprivation rights 18USC241, facilitated schemes to defraud, aided, abet extortion,
Respondent created law suppressed evidence established contaminated judicial
system; agencies enforcement oversight, DOJ FBI suppress Equal Protection
Clause, Fourteenth Amendment; absence FAR14 Notice concealed misuse of office.
4) Fraud origins, establish Respondent contempt Ninth Fourteenth Amendment:
USCFC arbitrarily destroyed contract: nullified Liberty, Enablement Clause
Fourteenth Amendment voided legitimacy U. S. Government; stated by St. George
Tucker, author,: "View of the Constitution of the United States” Ninth
Amendment guarded the people's collective right to alter or abolish their
form of government: under the principles of the Ninth and Tenth
Amendments, "the powers delegated to the federal government, are, in all cases, to
receive the most strict construction that the instrument will bear, where the rights of
a state or of the people, either collectively, or individually, may be drawn in
question." Exposed court created technicality misuse FRCP 26B(iv) established
malice, failure to hold person or persons accountable rule of law established
arbitrarily abuse of power by misapplication incarcerated prisoner common law
interfered statute False Claims Act 31 U.S.C. §§ 3729 - 3733 Civil Rights Act 1866;

10

5) Misapplication incarcerated prisoner civil rights common law; no legal standing
Tucker Act, established 04CV226 orders absence evidence FAR 14 notice Respondent
orders nullities; foundation fraud misapplication incarcerated prisoner common law
executed by judge discretion deny discovery FRCP 26B(iv) violated will of the
legislature, see Bush v Palm Beach County Canvassing Board, 531 U.S. 70 (2000),
No court has authority void Tucker Act 28USC1491 Supremacy Clause; Respondent
excess authority alter law, obstructed justice Fourteenth Amendment, enabled
arbitrary capricious powers created law from the bench; Tyranny
6) Olmstead v United States 277 U.S. 438 (1928) Judge Brandeis dissent cited
maxim; unclean hands from courts of equity whereby a court will not redress a
wrong when he who has requested its aid has unclean hands principle, Relevant, Oct
5 2020 denied order, Supreme Court aided Respondent void Bill of Rights; 2005 till
present void constitutional right of Pro Se; Faretta v. California. 422 U.S. 806
(1975): established court nothing more than a star chamber through created doctrine
incarcerated prisoner civil rights common law application denied discovery be heard;
court enabled nullity legal standing order unsuccessful bidder without FAR 14
notice obstructed Fourteenth Amendment suppressed Equal Protection Clause,
7) Merits; liability, created law, false narrative unsuccessful bidder established
judicial findings US Tax Court Case 3747-041 Wolf v Commissioner discovery
unsuccessful bidder a lie; established Reexamination Clause; Atlas Roofing Co., Inc.
v. Occupational Safety Comm'n, 430 U.S. 442 (1977) Court denied; Petitioners
NEVER HEARD; voided Reexamination Clause established corrupt judiciary, 16
11

year Misprision of felony; Exhibit 1 evidence government employees misuse office
for self-enrichment, misuse FRCP 26B(iv) deny discovery established corrupt
judiciary; suppressed evidence, Respondent constructive knowledge only FAR 14
notice legally defines unsuccessful bidder! obstructed Equal Protection Clause,
Fourteenth Amendment liberty clause! Respondent created cloak: W. Blackstone,
Commentaries *372 373. therapeutic value ofopen justice but regarded it as the
keystone fair trial " 1J. Bentham. Rationale ofJudicial Evidence 524 (1827).

8) Mandamus Denied Oct 5, 2020 obstructed Statute 18USC241 Conspiracy
against Rights, 18USC242 Withholding color of office, Exhibit 1 established
suppression evidence: conceal government contract fraud national security threat
enabled, judiciary unfettered discretion Exhibit 1 government employees misuse
office! conduct Congress defined extortion 18USC1961 established suppression
Equal Protection Clause obstructed Fourteenth Amendment
9) Respondent unfettered judicial discretion, interfered False Claims, Civil Rights
Act 1866! legitimacy govern voided by obstruction contract rights: "the general
right to make a contract in relation to his business is part of the liberty of the
individual protected by Fourteenth Amendment U.S. Constitution see Lochner v
New York 198 U.S. 45 (1905). precedent Fletcher v Peck 10 U.S. (6 Cranch) 87
binding contract. Contract Clause cannot be invalidated, Court denied mandamus•'
invalidated United States Constitution Contract Clause SeclO Cl.l. no FAR 14
notice verified exists, see Exhibit V, Ninth Amendment establishedjudges lacking a
12

proper view the Ninth Amendment, “outcome oflawsuit would be virtually pre­
determined: government wins” by rational basis test•' US. citizen loses- Petitioners
multiple cases established Respondent certified FRAUD, legal• origin fraud, case
law 04CV226 unsuccessful bidder,'in absence FAR 14 notice exposed as MAXIM'
established obstruction Fourteenth Amendment liberty clause
10) No Far 14 Notice established reckless disregard to truth,' constructive
knowledge see Envelope Co. v. Denominational Envelope Co., 80 F.2d 179, 182 (4th
Cir.1935) Respondent’s possession Exhibit 1 established Extortion: EVIDENCE
CLOAKED by FRCP 26B(iv) enabled, 16 year Misprision Treason: conceal
government corruption exposed Respondent judicial system compromised, nullified
Rights ofmam national interests and people’s natural rights are to be the
government duty, safeguard the people voided. Respondent created an affirmation
in particular case implies a negation in all others see Joseph Story, Commentaries
on the Constitution of the United States §1007 (5th ed. 1905)\ Ninth Amendment
voided established Petition for dissolution! Respondent arbitrarily replace rule of
law with fraud established tyranny 2005 enabled by Supreme Court error! orders
issued reaffirmed created law from the bench denied Petitioners be heard establish
freedom denied to all Americans, nullified liberty clause Fourteenth Amendment:
Mandamus necessary Respondent overreach established mandamus reliefis
otherwise “appropriate under the circumstances” see Cheney v. United States Dist.
Court for D.C., 542 U.S. 367, 380-81 (2004). Only, “exceptional circumstances
amounting to judicial ‘usurpation ofpower’” or a “clear abuse ofdiscretion” will
13

“justify the invocation of this extraordinary remedy,' suppressed equal protection
enabled Respondent repeal Thirteenth Amendment void Fourteenth Amendment
Enablement, Liberty, Due Process Clauses

Conclusion
For the foregoing reasons Petitioners prays this court (l) granting rehearing (2)
vacating court’s order denial writ of mandamus October 5, 2020 (3) predisposing
this case by granting writ of mandamus enforce Supremacy Clause! statute cannot
be voided by created common law enabled unlimited powers! Respondent enabled
fraud, extortion, act repugnant U.S. Constitution: Marbury v Madison 5 U.S. (l
Cranch) 137, 176! “ To what purpose are powers limited, and to what purpose is that
limitation committed to writing,' if these limits may at anytime, be passed by those
intended to be restrained”,' Respondent voided inalienable rights , enabled
Misprision of treason, facilitated Destruction Contract. Conceal evidence self­
dealing government contracts! Respondent suppressed Equal Protection, nullified
Fourteenth Amendment: FAR 50 Extraordinary circumstances, mandated enforce
10USC333 interference federal statute. What Price Freedom! Meus Sit Dux Veritas,
leadership through truth

14

November 16, 2020

Cheryl A Wolf Pro Se
D.O.D. Contractor Cage Code 03PL0
C/O Raymond J Fallica
6 Ethel Court
Wheatley Heights NY 11798
Tel 631 747-6124

Raymond J F^flica Pro Se
Administrator D.O.D. Contractor Cage Code 03PL0
6 Ethel Court
Wheatley Heights NY 11798
Tel 631 374-4649

a:
C/o Raymond J Fallica
6 Ethel Court
Wheatley Heights NY 11798
Tel 631 747-6297

c.c. DOJ Solicitor General

15

EXHIBIT ONE
Two letters a total two pages plus coversheet

June 7, 1996 Letter
Established
Contract Fraud several years federal employee impersonated contracting officer was actually acting
as the primary contract on Government 501C foundation established self deahng government
contracts exposed no contracting officer stated June 7, 1996 declaration exposed Scheme to defraud

June 10, 1996 letter
Government employee simultaneously a primary contractor is self enrichment by misuse of office
with Respondent agency IRS facilitated certified contract self dealing an illegal act legal enabled by
Respondent suppressed evidence being disclosed by misapphcation incarcerated prisoner common
law enforce
FRCP 26 B(iv); (B) Proceedings Exempt from Initial Disclosure. The following proceedings are
exempt from initial disclosure: (iv) an action brought without an attorney by a person in the custody
of the United States, a state, or a state subdivision

16

Sasaii Petersen Lubow
Diresaur of Ataletici

June 7, 1996
Kay Failles
Architectural Designs
7 Dosoris Lane
CHen Cove, NY 1 i 542
Dear Raw
I really don't understand your, tetter.
.

•

4

- ;•

Firstly, there is no COTR or COR - it’s just- me.
Secondly, before l give you pessfssioh to “seek additional &nding” I need to know who
you plan on approaching.
' :r
•
Thirdly. T realize that all the renovsneas exceed the $65,000 we have. This is why Iseed to see the pricing so this Lean prioritize wharfs to be done as well as try and get
academy personnel to do some ofthe work for so charge.
Please call me ASAP. /'

;

j

^

Thank you,
f

Susan Peter^s DssfeOw
Director of Athletics

t

3g-

•

ic: 2-

KINGS POINT £~H_=7IC=

= 1 = 7TZ =-€=

F.e:

a

Susan Petersen Lubow
Director of Athletics
;

June 10. 1996
Say Faiiiea
Architectural Designs
7 Dosoris Lane
GHen Cove, NY 11542
Dear Ray,
As per Sue Petersen Lubow, I am confirming the information that you faxed to us on
June 7. 1996.
• ..
Sue Petersen Lubow is the primary Contractor for the Field House Project and is
requesting that all mfcrmatich for-the field house be submitted to here asap for her review
:
If you need any further information, rplesse csli us.' •
Thank you,

:.

for Sue Petersen Lubow

«' ^ -

OTiARA HALL * KINGS POINT. NEW YORK 11024 - (516) 773*5859 FAX (516) 773-f-W

CERTIFICATE OF PRO SE as COUNSEL

I hereby certify declare 28USC1746 under penalty of perjury that the foregoing is
true and correct: this petition for rehearing is presented in good faith and not for
delay.

Raymond J Fallica
Administrator D.O.D. Contractor Cage Code 03PLO
6 Ethel Court
Wheatley Heights NY 11798
631 374-4649

19

Mandamus No. 19-1321

In The Supreme Court United States
In Re Ex rel Cheryl A Wolf, Raymond J Fallica , Mary Piscitello
Petitioners
v.
United States
Respondent

Certificate

Petitioners submit to this court certificate stating that the grounds are
limited and intervening circumstances of substantial or controlling effect or to other
substantial grounds not previously presented; in a format of 1-7 items;
1) Substantial grounds previously presented never in front full court, nine judges
Rule 44.
2) Substantial grounds not previously presented this Court’s order dated
October 5, 2020 established Rule of law suspended; court order probable nullified
precedent Marbury v Madison in possession Exhibit 1 admittance extortion self
enrichment manipulation self-dealing government contracts,
3) Substantial grounds not previously presented 2004 USCFC (U.S Court
Federal Claims) jurisdiction Tucker Act 28USC1491 strict scrutiny; court failure

1

mandate evidence APA FAR Notice 14-404.3 establish successful or unsuccessful
bid, government contract, evidence necessary make court ruling; without evidence
FAR14 Notice, courts ruling created law from the bench suppressed Equal
Protection Clause misprision of felony 18USC4 conceal self-dealing government
contracts Exhibit 1
4) Substantial grounds not previously presented, courts failure enforce
Constitution Supremacy Clause 2019. 2014 EDNY Judge recused himself for
judicial bias case 14CV5999, same EDNY Judge answer/ruled denied case
19CV00696 Petitioners Show cause mandated one piece evidence APA FAR 14.403.3
Notice after Respondent’s DOJ defaulted SDNY Case 19CV00696, Respondent DOJ
had case transferred EDNY same recused judge change case number to 19CV02100
altered docket change Tucker Act to civil rights 19CV00696/19CV02100 denied
recertified probable fraud USCFC Case 04CV226 unsuccessful bidder origin USCFC
Tucker Act only jurisdiction; recused judge establish obstruction Due process,
interfered procedural due process facilitated Misprision of Treason 18USC2382
5) Intervening circumstances, substantial or controlling effect multiple court
V

rulings/orders, absence FAR 14 Contracting Officer’s Notice established supression
evidence Exhibit 1 Case EDNY 08CV5071, EDNY 14CV5999, EDNY 16CV9446,
SDNY 19CV00696/EDNY19CV02100 recertified probable fraud USCFC 04CV226
order absence FAR 14 Notice established procedural due process obstructed.
Respondent identify Petitioners unsuccessful bidders establish probable perjury,
obstruction of justice nullified Reexamination Clause judicial findings 2007 U.S.
2

Tax Court, IRS issued Petitioner unsuccessful bidder Tax court mandated IRS
declare Petitioner Wolf HIRED under oath of perjury, judicial findings absence
FAR 14 Notice established IRS statements Petitioner unsuccessful bidder violated
18USC1001 false statements, act perjury 18USC1621, Obstruct Justice why oath of
perjury: Respondent absence FAR 14.404.3 Notice violated Equal Protection Clause
exposed destruction of evidence 18USC1519.
6) Intervening circumstances or controlling effect, FBI notified 2014, 2016
failure enforce the law, courts will not investigate probable obstruction of justice,
suppressed Equal Protection Clause, destruction inalienable rights established
legitimacy voided by insurrection from within, alter government, arbitrary conduct,
replace rule of law with fraud; absence FAR 14 Notice unsuccessful bidder created
Maxim voided Ninth Amendment, nullified Fourteenth Amendment Liberty Clause
voids legitimacy govern, legal foundation Petition dissolution civilian authority, new
evidence, absence FAR 14 Notice established unsuccessful bidder a maxim, exposed
Misprision of felony, suppress evidence Exhibit 1 last sixteen years till present.
7) Intervening circumstances Misapplication incarcerated prisoner civil
rights common law, discovery boilerplate used against all citizens, obstructed
procedural due process from inception no legal merits False Claims Act, Rico
statutes; USCFC Case 04CV226 voided Tucker Act with opinion rational basis test
has no legal standing as law; unfettered judicial opinion issued orders unsuccessful
bidder destroyed contract, evidence by misuse FRCP 26B(iv), new evidence;
boilerplate systematically misused incarcerated prisoner civil rights common law
3

voided Reexamination Clause void statute through judicial excess obstructed
fundamental rights Ninth Amendment nullified Fourteenth Amendment through
created law from bench, voided statute; incarcerated prisoner civil rights common
law issued at inception, standardized procedure facilitate FRCP 26B(iv), deny
discovery obstructed due process, denied fairness by corrupt judicial system; same
boilerplate applied inception Petitioner Piscitello civil Rico case mortgage fraud
Respondent stated incarcerated prisoner civil rights law; Petitioners cases
contracts voided by fraud exposed by lower courts judicial findings established
Reexamination Clause Seventh Amendment; deny discovery exposed new evidence
FBI Petition mandamus 2016, 16CV9446 failure enforce Reexamination clause
Respondent issued only case law incarcerated prisoner civil rights common law
exposed misapplication rational basis test falsely imposed FRCP26B(iv), enabled
restated unsuccessful bidder. Mandamus question why Reexamination clause
judicial findings two separate cases nullified, established conspiracy against rights
18USC241 by Deprivation rights withholding color of office 18USC242: history
established Pro se evidence destroyed; altered due process, suppressed Equal
Protection Clause equated all Petitioners as incarcerated prisoners nullified
Fourteenth Amendment denied Petitioners be heard; willful blindness.
I hereby certify under Oath of perjury, this certificate of substantial and
intervening circumstances is presented in good faith and not for delay.

4

November 16, 2020

Cheryl A Won Pro Se
D.O.D. Contractor Cage Code 03PL0
C/O Raymond J Fallica
6 Ethel Court
Wheatley Heights NY 11798
Tel 631 747-6124

Raymond J Fallica Rj»Se
Administrator D.O.D. Contractor Cage Code 03PL0
6 Ethel Court
Wheatley Heights NY 11798
Tel 631 374-4649

C/o Raymond J Fallica
6 Ethel Court
Wheatley Heights NY 11798
Tel 631 747-6297

c.c. DOJ Solicitor General

5

